Memorandum Report




OIG-CA-10-005
GENERAL MANAGEMENT: Administrative Resource Center
Processing of Personnel Actions for the Community
Development Financial Institutions Fund
February 1, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                February 1, 2010




            OIG-CA-10-005

            MEMORANDUM FOR VAN ZECK, COMMISSIONER
                           BUREAU OF THE PUBLIC DEBT

            FROM:                   Kieu T. Rubb
                                    Director, Procurement and Manufacturing Audits

            SUBJECT:                Administrative Resource Center Processing of Personnel
                                    Actions for the Community Development Financial
                                    Institutions Fund


            We completed an audit of the Community Development Financial Institutions
            Fund’s (Fund) procurement process for its information technology (IT) development
            and support contracts in 2008.1 In connection with that audit, we noted
            deficiencies related to certain personnel management practices by the Fund. These
            deficiencies were facilitated by the Bureau of the Public Debt’s (BPD)
            Administrative Resource Center (ARC) as the Fund’s human resources service
            provider.

            In brief, ARC processed a noncompetitive promotion for the Fund without obtaining
            all appropriate documentation from the Fund. Additionally, ARC did not properly
            maintain adequate records for the processed personnel action. While we did not
            conduct an audit of ARC’s processing of personnel actions, we consider these
            matters serious enough to warrant corrective action by ARC management.
            Accordingly, we are making three recommendations in this memorandum report. In
            your written response, which we are including as appendix 1, you concurred with
            our recommendations and outlined planned actions that are responsive to the
            recommendations. BPD will need to develop and record the estimated completion
            dates for the planned actions in the Joint Audit Management Enterprise System
            (JAMES), the Department of the Treasury’s audit recommendation tracking system.
            A distribution list for this memorandum is provided as appendix 2.



            1
             CDFI Fund Contract Administration and Personnel Management Practices Need Improvement
            (OIG-09-048, Sept. 17, 2009)
Page 2

Finding 1 - Noncompetitive Promotion Processing Practices Were Inadequate

In August 2006, ARC processed a noncompetitive promotion, specifically an
accretion of duties promotion of a Fund employee from GS-13 to GS-14, without
obtaining adequate documentation from the Fund. The documentation should have
included a promotion justification describing those duties and responsibilities that
the employee performed which was in addition to his normal duties and
responsibilities. In this instance, the promoted employee was a contract specialist
serving as the contracting officer’s technical representative (COTR) and alternate
COTR on two Fund contracts.

Federal personnel law states that an agency shall place each position under its
jurisdiction in its appropriate class and grade in conformance with standards
published by the Office of Personnel Management (OPM). When facts warrant, the
agency may change a position to another class or grade.2 According to personnel
regulations, an agency may, at its discretion and without using a competitive
action, promote an employee and classify the position to a higher grade when an
employee performs additional duties and responsibilities beyond those identified in
his or her current position.3 This process is commonly referred to as an accretion of
duties.

When properly used, an accretion of duties promotion allows agencies to promote
an employee who has performed additional duties and responsibilities not normally
required in the employee’s current position description. In this instance, however,
the Fund did not document its rationale for promoting the employee and did not
identify the additional duties and responsibilities performed by the employee. ARC
processed the promotion without obtaining a written justification describing the
additional duties and responsibilities.

Finding 2 - Records Management Needs Improvement

Federal personnel law states that an agency shall place each position under its
jurisdiction in its appropriate class and grade in conformance with standards
published by OPM and maintain those records for Agency and OPM reviews.4

During our audit fieldwork, we asked the Fund and ARC on several occasions for
(1) the approval document for the accretion of duties promotion and (2) copies of
the related position descriptions. We first asked for the documentation in
September 2008. For the accretion of duties documentation, the Fund provided us
2
  5 USC § 5107.
3
  5 CFR § 335.103(c)(3)(ii).
4
  5 USC § 5113.
Page 3

with a partially approved accretion of duties promotion certification document that
only included the approval of the Fund employee’s immediate supervisor. A follow
up request with ARC in October 2008 resulted in ARC concluding that ARC did not
have a copy of the ARC-approved accretion of duties promotion certification
package. However, after several months, in April 2009, ARC staff found the
completed, approved certification package, with both Fund and ARC signatures and
both position descriptions, in an employee’s desk. Initially the ARC human
resources specialist we interviewed was not sure why ARC processed the
promotion in 2006 without the necessary approvals and justification. She stated
that the practice was inconsistent with ARC’s normal process.

For the employee’s position description, the ARC human resources specialist
informed us that ARC also used the accretion of duties promotion certification
package provided by the Fund to create a GS-14 position description in HRConnect.
However, that position description was incomplete because it did not include a
narrative, duties, responsibilities, and text that should normally be included on a
position description. As a result of our discussions, ARC input a new GS-14
contract specialist position description in HRConnect in January 2009 that included
the narrative, duties, responsibilities, and text that normally accompanies a position
description. The Fund also reassigned the contract specialist to the new position
description at that time.

Recommendations

We recommend that the Commissioner do the following:

1. Remind ARC staff to obtain adequate support documentation from client
   agencies for noncompetitive promotions before the promotions are processed.

   Management Response ARC is committed ensuring that any noncompetitive
   promotion actions processed meet all legal requirements. ARC will provide
   verbal and written guidance to the staff to outline the steps to follow and
   documentation required when processing accretion of duties promotions to
   ensure compliance with applicable rules.

   OIG Comment Management’s planned corrective action is responsive to the
   intent of our recommendation.
Page 4

2. Ensure that new position descriptions established in HRConnect are complete.

   Management Response ARC will develop a standard operating procedure to
   outline the steps required to enter a position description into the personnel
   processing system and provide guidance to staff.

   OIG Comment Management’s planned corrective action is responsive to the
   intent of our recommendation.

3. Ensure that client-prepared documents supporting personnel actions are properly
   maintained and accessible for management purposes and for audit.

   Management Response ARC recognizes the importance of maintaining accurate
   records and will ensure that personnel files are properly maintained and readily
   available for review. ARC will strengthen practices surrounding the maintenance
   through implementation of standard operating procedures.

   OIG Comment Management’s planned corrective action is responsive to the
   intent of our recommendation.

We appreciate the courtesies and cooperation extended by your staff as we
inquired about these matters. If you have any questions, please contact me at
(202) 927-5400.

Appendices
Appendix 1
Management Response
Appendix 1
Management Response
Appendix 2
Distribution




Department of the Treasury

   Deputy Secretary
   Office of Accounting and Internal Control
   Office of Strategic Planning and Evaluations
   Director, Community Development Financial Institutions Fund

Bureau of the Public Debt

    Commissioner
    Chief Financial Officer
    Audit Liaison
    ARC Office of the Executive Director

Office of Management and Budget

    OIG Budget Examiner
